No. 21-195

In The

Supreme Court of the United States
BELMORA LLC AND JAMIE BELCASTRO,
Petitioners,

v.

BAYER CONSUMER CARE AG AND BAYER HEALTHCARE LLC,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit
BRIEF OF NATIONAL HISPANIC MEDICAL ASSOCIATION AS
AMICUS CURIAE IN SUPPORT OF PETITIONERS
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I hereby certify that the Brief
of National Hispanic Medical Association as Amicus Curiae in Support of
Petitioners Belmora LLC and Jamie Belcastro v. Bayer Consumer Care AG
and Bayer Healthcare LLC, No. 21-195, complies with the word limitations, as
it contains 3,843 words.
I declare under penalty of perjury that the foregoing is true and correct.
Dated: September 10, 2021.

Bruce L. Campbell

